No. 19-7

In the Supreme Court of the United States
SEILA LAW LLC, PETITIONER
v.
CONSUMER FINANCIAL PROTECTION BUREAU

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

THOMAS H. BIENERT, JR.
ANTHONY BISCONTI
BIENERT KATZMAN PC
903 Calle Amanecer,
Suite 350
San Clemente, CA 92673

KANNON K. SHANMUGAM
Counsel of Record
MASHA G. HANSFORD
WILLIAM T. MARKS
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

In the Supreme Court of the United States
No. 19-7
SEILA LAW LLC, PETITIONER
v.
CONSUMER FINANCIAL PROTECTION BUREAU

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

The government has acquiesced in the granting of certiorari in this case. The government agrees that this case
presents an exceptionally important question: whether
the structure of the Consumer Financial Protection Bureau violates the separation of powers. See Br. 7-16. It
agrees that the question warrants the Court’s immediate
review, in light of the ongoing “uncertainty” that “undermines the Bureau’s ability to fulfill its mission.” Br. 18.
And it agrees that this case is an appropriate vehicle in
which to consider and decide the question—including the
subsidiary question of the “proper remedy” for any constitutional violation. See Br. 16-20.
Since the government’s acquiescence, two unusual petitions for certiorari have been filed presenting substantively identical constitutional questions—one by parties
(1)

2
that actually prevailed on that question below, the other
by parties that are seeking the extraordinary remedy of
certiorari before judgment. See Collins v. Mnuchin, No.
19-422 (docketed Sept. 30, 2019); All American Check
Cashing, Inc. v. CFPB, No. 19-432 (docketed Oct. 2, 2019).
Neither of those petitions offers a colorable reason to delay the granting of review in this case, especially given the
urgent need for the Court to answer the question presented in light of the government’s position that the
CFPB’s structure is unconstitutional. The petition for a
writ of certiorari should therefore be granted.
1. This case is an optimal vehicle in which to consider
the question of the CFPB’s constitutionality. It squarely
and cleanly presents the question, which was fully briefed
in the court of appeals and constitutes the sole ground
supporting the judgment below. As the government has
recognized (Br. 17-20), there are no valid impediments to
the Court’s review here. In particular, this case arises
from the CFPB’s effort to enforce a civil investigative demand, which the CFPB issued in aid of a potential enforcement action under federal consumer-financial law.
As the government has explained (Br. 19-20), the CFPB
was thus exercising core executive authority, and it expressly abandoned any alternative justification for enforcing the civil investigative demand below.
This case will also afford the Court with the opportunity to consider the full range of remedial options in the
event it holds the CFPB’s structure unconstitutional.
Throughout this litigation, petitioner has consistently argued that the appropriate remedy is to “invalidate the
CFPB as a whole,” or, at a minimum, to hold that the civil
investigative demand is unenforceable. Pet. C.A. Br. 3032; see D. Ct. Dkt. 20, at 7-8. And in its brief before this
Court, the government has made clear that it intends to

3
argue that the “proper remedy” for any constitutional violation is to “sever the provision limiting the President’s
authority to remove the Bureau’s director.” Br. 16-17.
There is thus no doubt that the parties to this case will join
battle on, and fully brief and argue, the remedial issues if
the Court grants review.
The All American petitioners contend (at 5, 27-30)
that the Court “would not be able to reach the remedial
issue[s]” in this case, seemingly on the ground that the petition in this case does not break out the remedial question
as a second question presented. That is a puzzling contention. Parties do not seek this Court’s review on constitutional questions for kicks; they do so in order to obtain
meaningful relief. Accordingly, when the Court hears
constitutional cases, it routinely proceeds to consider and
decide the appropriate remedy upon finding a constitutional violation, regardless of whether the petition itself
presented a separate remedial question.*
2. The Collins petitioners identify two purported vehicle problems with this case. Both are insubstantial.
First, the Collins petitioners contend (at 20-22) that it
is “doubtful” the court of appeals had jurisdiction over this
case because the district court’s order was not final. That
contention verges on the frivolous. The Consumer Financial Protection Act expressly authorizes the CFPB to ini-

In the last year and a half alone, this Court has had two such cases
in which the petitioners were represented by the same law firm as the
All American petitioners. See Lucia v. SEC, 138 S. Ct. 2044 (2018);
Murphy v. NCAA, 138 S. Ct. 1461 (2018). In each case, the petition
did not present a separate remedial question, yet the parties briefed
the remedial issues extensively at the merits stage and the Court addressed them. Compare Pet. at i with Pet. Br. at 42-57, Lucia, supra
(No. 17-130), and Pet. at i with Pet. Br. at 53-56, Murphy, supra (No.
16-476).
*

4
tiate an action in federal court to enforce a civil investigative demand, and, as is relevant here, it expressly provides
that any final order entered in such an action “[is] subject
to appeal pursuant to [28 U.S.C. 1291].” 12 U.S.C.
5562(e)(1), (h)(1)-(2). The CFPB filed a petition to enforce
its civil investigative demand, expressly invoking that authority. See D. Ct. Dkt. 1, at 2. After narrowing the demand, the district court granted the CFPB’s petition and
closed the case the same day. See D. Ct. Dkt. 25. Whatever the appealability of interlocutory discovery orders in
ordinary civil litigation, therefore, Congress created a
stand-alone proceeding for the CFPB to obtain orders
such as the one at issue here and then eliminated any ambiguity as to whether those orders are appealable. Unsurprisingly, the CFPB cited those provisions in acknowledging below that the court of appeals had jurisdiction.
See Resp. C.A. Br. 3.
Second, the Collins petitioners contend (at 22-23) that
the need to appoint an amicus curiae to defend the
CFPB’s constitutionality is a vehicle problem. But this
Court routinely appoints amici in similar circumstances;
indeed, it did so in Lucia v. SEC, 138 S. Ct. 2044 (2018),
after the government conceded a similar separation-ofpowers violation. In addition, both the House of Representatives and a group of members of Congress have since
signaled that they would be willing to present oral argument in defense of the judgment below. See H. Rep. Br.
10-11; Letter from Elizabeth Wydra, counsel for Senator
Sherrod Brown et al., to the Clerk 1 (Oct. 1, 2019).
3. The petition for certiorari in this case should be
granted without delay. The recently filed petitions present no additional questions that warrant the Court’s review. Accordingly, consistent with its usual practice, the
Court should hold those petitions pending the resolution
of this one.

5
To begin with, as discussed above, this case presents
not just the constitutional question, but also the subsidiary question of the appropriate remedy for any constitutional violation. See pp. 2-3, supra. The petitioners in the
recently filed cases do not identify any remedial option
that petitioner has not advanced, and the Court therefore
need not grant review in any additional case in order to
ensure that it can fully address the remedial issues.
The All American petitioners suggest (at 27-30) that
their case presents the additional question whether the
CFPB’s then-Acting Director validly ratified the actions
of a former Director. That is not a virtue, but a vice. As
the government has explained, the ratification question
does not independently warrant the Court’s review. See
Br. 18-19. There is no circuit conflict on the validity of
ratification, and the Court recently denied review on that
question. See Gordon v. CFPB, 137 S. Ct. 2291 (2017).
And precisely because the All American petitioners are
seeking certiorari before judgment, the court of appeals
in that case has not had the opportunity to pass on the ratification question they now want answered. There is no
reason for this Court to consider that fact-intensive and
case-specific question in the first instance, particularly because it could interfere with the Court’s ability to reach
the more broadly significant constitutional question. Cf.
Lucia, 138 S. Ct. at 2055 n.6.
4. In light of the concession by the government, and
now by the CFPB itself, that the CFPB’s structure is unconstitutional, the need for review is beyond urgent. By
the government’s own admission (Br. 18), the lingering legal doubt over the CFPB’s constitutionality casts a cloud
over every action that the Bureau takes. To put it bluntly,
it is unclear whether the CFPB can continue to “act as an
enforcer when its lone director—who is ultimately responsible for all of [its] decisions—has acknowledged that

6
she believes she was appointed under an unconstitutional
provision.” Alison Frankel, CFPB Just Told SCOTUS It’s
Unconstitutional. What Does That Mean For Its Mission?, Reuters (Sept. 18, 2019) <tinyurl.com/cfpbmission>.
Under these circumstances, where the case for further
review is so compelling, the Court should not delay. The
appropriate course is to grant the petition in this case and
hold the recently filed petitions pending the Court’s decision. That will enable the Court to have the cleanest opportunity to address the constitutional question and any
remedial issues, without the complications posed by the
extraordinary circumstances under which the other cases
come to the Court.
*

*

*

*

*

The petition for a writ of certiorari should be granted.
Respectfully submitted.
THOMAS H. BIENERT, JR.
ANTHONY BISCONTI
BIENERT KATZMAN PC
903 Calle Amanecer,
Suite 350
San Clemente, CA 92673

OCTOBER 2019

KANNON K. SHANMUGAM
MASHA G. HANSFORD
WILLIAM T. MARKS
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

